No. 20-7382
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CALVIN THOMAS, PETITIONER
v.

UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MEMORANDUM FOR THE UNITED STATES IN OPPOSITION, via email and firstclass mail, postage prepaid, this 10th day of May 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 10, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-7382
THOMAS, CALVIN
USA

BRIANNA FULLER MIRCHEFF
OFFICE OF THE FEDERAL PUBLIC DEFENDER
321 E. 2ND STREET
LOS ANGELES, CA 90012
BRIANNA_MIRCHEFF@FD.ORG

